GR-70-99-005
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Justice Programs
Fiscal Year 1997 Drug Court Implementation Initiative
 to the Superior Court of New Jersey
Grant Number 97-DC-VX-0138
GR-70-99-005
 
March 31, 1999
 
* * * * *
EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grant
number 97-DC-VX-0138, awarded by the U.S. Department of Justice (DOJ), Office of Justice
Programs (OJP) to the Superior Court of New Jersey (Court). The grantee received $385,000
in federal funds for operation of the drug court. The grant period was from April 1, 1997
through June 30, 1999. As of September 30, 1998, the grantee reported expenditures of
$193,000 in grant funds. 
Our audit covered the period April 1, 1997 through the end of our fieldwork on November
16, 1998. We tested the accuracy and reliability of the Courts accounting system,
reviewed the general ledger, and evaluated the allowability, allocability, and
reasonableness of costs.
For the purpose of this review, we used the Office of Management and Budget Circular
A-133, Audits of States, Local Governments, and Nonprofit Organizations, and the OJP
Financial Guide. 
Based on our audit, we found that the grantee properly managed the grant.


Generally, costs charged to the grant were allowable, allocable, and reasonable.


Monitoring reports were submitted as required by the grant.


The grant objectives outlined in the application were being implemented.

However, we did identify deficiencies that are described in the Findings and
Recommendations section of this report. Our Scope and Methodology section appears in the
Appendix.
#####